if-

No. 20-__
(Related to No. 20A98)
3n tljc

Supreme Court of tfje fHmteb States
MIKE KELLY, U.S. Congressman; SEAN PARNELL; THOMAS A. FRANK;
NANCY KIERZEK; DEREK MAGEE; ROBIN SAUTER; MICHAEL KINCAID;
and WANDA LOGAN,
Petitioners,
v.
COMMONWEALTH OF PENNSYLVANIA; PENNSYLVANIA GENERAL
ASSEMBLY; THOMAS W. WOLF, in his official capacity as Governor of the
Commonwealth of Pennsylvania; and KATHY BOOCKVAR, in her official capacity
as Secretary of the Commonwealth of Pennsylvania,
Respondents.
On Petition for A Writ of Certiorari
to the Supreme Court of Pennsylvania
MOTION FOR EXPEDITED CONSIDERATION OF THE PETITION FOR A
WRIT OF CERTIORARI AND FOR EXPEDITED MERITS BRIEFING IN
THE EVENT THAT THE COURT GRANTS THE PETITION

Gregory H. Teufel
Counsel of Record
OGC Law, LLC
1575 McFarland Rd., Suite 201
Pittsburgh, PA 15228
412-253-4622
gteufel@ogclaw.net

Petitioners respectfully move, pursuant to Supreme Court Rule 21, for expedited
consideration of the petition for a writ of certiorari, filed today, to review the
judgment of the Supreme Court of Pennsylvania entered November 28, 2020 and its
December 3, 2020 denial of a stay of that November 28 Order. (Pet. App. la, 16a).
Expedited review is warranted because of the need to resolve this appeal in time to
implement constitutionally permissible voting procedures for Pennsylvania’s 2021
primary and general elections and to minimize limitations on the ability to provide
relief with respect to the 2020 general election. Petitioners also move for expedited
consideration of this motion and for this Court to order respondents to respond to this
motion by Tuesday, December 15, 2020.
STATEMENT
Respondent, Governor Thomas Wolf, signed Act of October 31, 2019, P.L. 552,
No. 77 (“Act 77”) into law - implementing sweeping reforms to Pennsylvania’s
Election Code. Act 77, disregarding 158 years of Pennsylvania Supreme Court
precedent requiring a constitutional amendment to expand absentee voting, permits
no excuse, mail-in voting. For the reasons discussed in the petition, Act 77 violates
both the Constitution of the United States and the Constitution of the Commonwealth
of Pennsylvania.
Petitioners initiated this action by filing a petition for review in the
Commonwealth Court of Pennsylvania on November 21, 2020, seeking injunctive
relief (enjoining the Executive-Respondents from certifying the results of the
November 3, 2020 general election) and to have Act 77 declared unconstitutional. The

Commonwealth Court entered emergency preliminary injunctive relief - enjoining
Respondents from taking any further steps to certify the results of the November 3,
2020 general election - on November 25, 2020. (Pet. App. 30a) The Commonwealth
Court further issued a memorandum opinion in support of the November 25, 2020
order which expressly found that Petitioners “appear to have established a likelihood
to succeed on the merits” ... “Petitioners appear to have a viable claim that the mailin ballot procedures set forth in Act 77 contravene Pa. Const. Article VII Section 14
as the plain language of that constitutional provision is at odds with the mail-in
provisions of Act 77.” (Pet. App. 26a-27a).
At

Respondents’

request,

Pennsylvania’s

Supreme

Court

exercised

extraordinary jurisdiction- vacating the Commonwealth Court’s order and dismissing
the petition for review with prejudice on November 28, 2020. All of Petitioners’ claims
- including prospective relief for future elections — were dismissed with prejudice
solely based on laches. On December 2, 2020, Petitioners requested the Pennsylvania
Supreme Court issue an emergency stay, pending the filing and disposition of a
Petition for a Writ of Certiorari with this Court. The following day, Pennsylvania’s
Supreme Court issued a per curiam order denying the emergency stay application.
Later that day, Petitioners filed an emergency application for writ of injunction
pending the filing and disposition of a petition for a writ of certiorari to the Honorable
Samuel A. Alito, Jr. Justice Alito requested a response to the application by Tuesday,
2

December 8, 2020 - which Respondents filed. The same day, Justice Alito referred
the application to the Court and the application was denied. The Court’s December
8, 2020 Order solely addresses, and denies, the application for injunctive relief.
No court — other than the Commonwealth Court, who found Petitioners were
likely to succeed on the merits - has addressed the constitutionality of Act 77’s mailin voting scheme. Absent intervention by this Court, Pennsylvania’s Supreme Court’s
dismissal, with prejudice and without ruling on the merits of Petitioners’
constitutional challenge, will permanently preclude judicial review of Act 77.
ARGUMENT
Expedited consideration of the petition for a writ of certiorari is warranted
because the questions presented are of exceptional importance, implicating the core
of the electoral process and the constitutionality of how Pennsylvania citizens cast
their votes. Resolution of this case is also highly time sensitive. Absent expedited
intervention of this court, the decision below will allow Pennsylvania’s 2021 primary
and general elections to be conducted in an unconstitutional manner. All
Pennsylvania voters will be permanently disenfranchised of their right — as
guaranteed by the Pennsylvania Constitution — to vote on whether to amend the
Pennsylvania Constitution to expand absentee voting to include no-excuse mail-in
voting. The General Assembly and Governor unconstitutionally usurped the voters’

3

4

right to decide on mail-in balloting by passing Act 77 instead of amending the
Pennsylvania Constitution.
Relief with respect to the 2020 general election, for the time being, is still possible,
but expedited consideration is necessary to minimize limitations on the ability to
provide relief with respect to the 2020 general election. In addition, under
Pennsylvania law, a primary election will be held on Tuesday, May 18, 2021. 25
Pa.Stat. § 2754 (“There shall be a Municipal primary preceding each municipal
election which shall be held on the third Tuesday of May in all odd-numbered years”).
There are only 26 days until the United States Congress meets to count the 2020
electoral college votes. There are only 158 days until the 2021 Primary election. This
Court’s expedited review is necessary to provide clarity in sufficient time to allow
Respondents to prepare for the 2021 primary election. The cost of not granting
expedited review in this matter is great - allowing the 2021 primary election and
general election to be conducted pursuant to Act 77’s unconditional no-excuse, mailin voting scheme, compounding the injury of conducting 2020 elections in an
unconstitutional manner. Allowing Act 77’s unconstitutional scheme to persist risks
undermining public confidence in elections.
Given the urgent nature of this appeal, the limited options remaining for relief
with respect to the 2020 general election, and the rapidly approaching 2021 primary
election, expedited consideration of the questions presented is warranted on the
4

following proposed schedule: Petitioners’ brief and any amicus curiae in support be
due on December 17, 2020; Respondents’ brief and any amicus curie in support be
due by December 23, 2020; Petitioners’ reply brief be due by December 24, 2020.
Through this motion, Petitioners waive the 14-day period provided for in this Court’s
Rule 15.5 between the filing of a brief in opposition and the distribution of the petition
and other materials to the Court.
CONCLUSION
WHEREFORE, for the reasons stated, Petitioners respectfully request that the
Court expedite consideration of the petition for a writ of certiorari and order
expedited merits briefing based on the schedule proposed above or such other
expedited schedule as the Court may deem proper.
December 11, 2020

Respectfully submitted,
Gregory H. Teufel, Esq.
Counsel of Record
OGC Law, LLC
1575 McFarland Road, Suite 201
Pittsburgh, PA 15216
412-253-4622
gteufel@o gclaw. net
Counsel for Petitioners

5

